Annual Report, “Federal Information Security Management Act: Fiscal Year 2007 Report
from the Office of Inspector General” (IG-07-034, September 28, 2007)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. We
noted that NASA identified its IT security program as a material weakness reportable in
accordance with the Federal Managers’ Financial Integrity Act. NASA’s IT security
program will remain as a material weakness until IT security weaknesses, identified
during this fiscal year and in previous years, are mitigated.

In January 2007, the Agency completed a comprehensive security review of NASA IT
systems. The review (1) assessed Headquarters and Center implementation of existing
NASA policy requirements; (2) evaluated the effectiveness of the Agency’s IT security
organizational structure; (3) verified the accuracy of IT security incident and status
reports; and (4) evaluated the effectiveness of policy enforcement efforts. The review
resulted in recommendations that the NASA Office of the Chief Information Officer
(OCIO) is aggressively addressing, in accordance with its March 23, 2007, corrective
action plan. We commend the OCIO for these efforts; nonetheless, significant challenges
remain.

The OMB’s FY 2007 Report to Congress on Implementation of The Federal Information
Security Management Act of 2002 includes information provided by our report. However,
as an “Intra-Agency Memorandum,” our report is considered exempt from release under
the Freedom of Information Act (FOIA); it also contains NASA Information Technology/
Internal Systems Data that is not routinely released under FOIA. To submit a FOIA
request, see the online guide.
